   AUDIT OF COMPLIANCE WITH STANDARDS

  GOVERNING COMBINED DNA INDEX SYSTEM

ACTIVITIES AT THE AUSTIN POLICE DEPARTMENT

              DNA LABORATORY

               AUSTIN, TEXAS





         U.S. Department of Justice

       Office of the Inspector General

                Audit Division



         Audit Report GR-60-11-005

               December 2010

      AUDIT OF COMPLIANCE WITH STANDARDS

 GOVERNING COMBINED DNA INDEX SYSTEM ACTIVITIES

        AT THE AUSTIN POLICE DEPARTMENT

                DNA LABORATORY

                 AUSTIN, TEXAS


                              EXECUTIVE SUMMARY



      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Austin Police
Department’s DNA Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. National DNA Index System (NDIS), the
highest level in the hierarchy, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by law enforcement agencies
across the United States. NDIS enables the laboratories participating in the
CODIS program to electronically compare DNA profiles on a national level.
The State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories and

       1
          DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9-percent of human DNA is the same for all people. The differences
found in the remaining 0.1-percent allow scientists to develop a unique set of DNA
identification characteristics (a DNA profile) for an individual by analyzing a specimen
containing DNA.
state offenders. The Local DNA Index System (LDIS) is used by local
laboratories.

OIG Audit Objectives

      Our audit generally covered the period from July 2008 through
July 2010. The objectives of our audit were to determine if: (1) the
Laboratory was in compliance with the NDIS participation requirements;
(2) the Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) the Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS.

      Our review determined the following:

   •	 The Laboratory was in compliance with the NDIS participation
      requirements we reviewed. Specifically, we found that CODIS access
      is properly safeguarded, Laboratory personnel requirements are being
      fulfilled, and policies and procedures related to NDIS are available and
      followed by Laboratory staff.

   •	 We reviewed the Laboratory’s policies and procedures related to
      sample security, sample processing, sample retention, and
      contamination. In addition, we examined the Laboratory’s most recent
      internal and external audits. We found the Laboratory to be in
      compliance with the QAS areas we tested.

   •	 We reviewed 100 of 667 forensic profiles the Laboratory had
      uploaded to NDIS as of July 1, 2010. Of the 100 forensic profiles
      sampled, we found that 97 of the sampled forensic profiles were
      complete, accurate, and allowable for inclusion in NDIS. We
      identified three forensic case samples that were not permissible
      for upload to NDIS because they were not forensic unknowns.
      Also, one additional unallowable profile, which was not part of
      our sample, was identified as a result of our review. The CODIS
      Administrator removed the unallowable profiles from NDIS
      before we completed fieldwork.

      The results of our audit are discussed in detail in the Findings section
of the report. Our audit objectives, scope, and methodology are detailed in
Appendix I of the report and the audit criteria are detailed in Appendix II.
We discussed the results of our audit with Laboratory officials and have
included their comments in the report as applicable.


                                       ii
                               TABLE OF CONTENTS


INTRODUCTION ................................................................................ 1


   Background .....................................................................................1


   OIG Audit Objectives ........................................................................1


   Legal Foundation for CODIS...............................................................2


   CODIS Structure ..............................................................................2


   Laboratory Information .....................................................................6


FINDINGS AND RECOMMENDATIONS................................................ 7


   I. Compliance with NDIS Participation Requirements............................7


   II. Compliance with the Quality Assurance Standards......................... 10


   III. Appropriateness of Forensic DNA Profiles in CODIS Databases....... 13


APPENDIX I – OBJECTIVES, SCOPE, AND METHODOLOGY................16


APPENDIX II – AUDIT CRITERIA .....................................................19


APPENDIX III – FBI RESPONSE TO THE DRAFT REPORT ..................23


APPENDIX IV – AUDITEE RESPONSE TO THE DRAFT REPORT ..........24


APPENDIX V – OFFICE OF THE INSPECTOR GENERAL

   COMMENTS ON THE AUDITEE RESPONSE TO THE DRAFT

   AUDIT REPORT...........................................................................25

      AUDIT OF COMPLIANCE WITH STANDARDS

 GOVERNING COMBINED DNA INDEX SYSTEM ACTIVITIES

        AT THE AUSTIN POLICE DEPARTMENT

                DNA LABORATORY

                 AUSTIN, TEXAS


                                   INTRODUCTION



      The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Austin Police
Department DNA Laboratory (Laboratory).

Background

       The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the
United States using forensic science and computer technology. The CODIS
program allows these laboratories to compare and match DNA profiles
electronically, thereby assisting law enforcement in solving crimes and
identifying missing or unidentified persons. 2 The FBI’s CODIS Unit manages
CODIS and is responsible for its use in fostering the exchange and
comparison of forensic DNA evidence.

OIG Audit Objectives

      Our audit generally covered the period from July 2008 through
July 2010. The objectives of our audit were to determine if: (1) the Austin
Police Department DNA Laboratory was in compliance with the National DNA
Index System (NDIS) participation requirements; (2) the Laboratory was in
compliance with the Quality Assurance Standards (QAS) issued by the FBI;
and (3) the Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS. Appendix I contains
a detailed description of our audit objectives, scope, and methodology, while
the criteria used to conduct our audit are presented in Appendix II.


       2
          DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9-percent of human DNA is the same for all people. The differences
found in the remaining 0.1-percent allow scientists to develop a unique set of DNA
identification characteristics (a DNA profile) for an individual by analyzing a specimen
containing DNA.
Legal Foundation for CODIS

      The FBI began the CODIS program as a pilot project in 1990. The
DNA Identification Act of 1994 (Act) authorized the FBI to establish a
national index of DNA profiles for law enforcement purposes. The Act, along
with subsequent amendments, has been codified in a federal statute
(Statute) providing the legal authority to establish and maintain NDIS. 3

Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice agency —
or the U.S. Department of Defense — in accordance with QAS issued by the
FBI. The DNA information in the index is authorized to be disclosed only:
(1) to criminal justice agencies for law enforcement identification purposes;
(2) in judicial proceedings, if otherwise admissible pursuant to applicable
statutes or rules; (3) for criminal defense purposes, to a defendant who shall
have access to samples and analyses performed in connection with the case
in which the defendant is charged; or (4) if personally identifiable
information (PII) is removed for a population statistics database, for
identification research and protocol development purposes, or for quality
control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by participating states, (2) the
State DNA Index System (SDIS) is used at the state level to serve as a

      3
          42 U.S.C.A. § 14132 (2006).

                                        2

state’s DNA database containing DNA profiles from local laboratories within
the state and state offenders, and (3) the Local DNA Index System (LDIS) is
used by local laboratories. DNA profiles originate at the local level and then
flow upward to the state and, if allowable, national level. For example, the
local laboratory in the Palm Beach County, Florida, Sheriff’s Office sends its
profiles to the state laboratory in Tallahassee, which then uploads the
profiles to NDIS. Each state participating in CODIS has one designated SDIS
laboratory. The SDIS laboratory maintains its own database and is
responsible for overseeing NDIS issues for all CODIS-participating
laboratories within the state. The graphic below presents an example of how
the system hierarchy works.

                 Example of System Hierarchy within CODIS

                                           NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office



National DNA Index System

      NDIS is the highest level in the CODIS hierarchy and enables the
laboratories participating in the CODIS program to electronically compare
DNA profiles on a national level. NDIS does not contain names or other PII
about the profiles. Therefore, matches are resolved through a system of
laboratory-to-laboratory contacts. Within NDIS are eight searchable indices
discussed in the following paragraphs.



                                                  3

    •	   Convicted Offender Index contains profiles generated from persons
         convicted of qualifying offenses. 4

    •	   Detainee Index consists of DNA records from non-United States (U.S.)
         persons detained under the authority of the U.S. and required by law
         to provide a DNA sample.

    •	   Arrestee Index is comprised of profiles developed from persons who
         have been arrested, indicted, or charged in an information with a
         crime.

    •	   Legal Index consists of profiles that are produced from DNA samples
         collected from persons under other applicable legal authorities. 5

    •	   Forensic Index profiles originate from, and are associated with, 

         evidence found at crime scenes.


    •	   Missing Person Index contains known DNA profiles of missing persons
         and deduced missing persons.

    •	   Unidentified Human (Remains) Index holds profiles from unidentified
         living individuals and the remains of unidentified deceased
         individuals. 6

    •	   Relatives of Missing Person Index is comprised of DNA profiles
         generated from the biological relatives of individuals reported missing.

      Although CODIS is comprised of multiple indices or databases, the two
main functions of the system are to: (1) generate investigative leads that
may help in solving crimes and (2) identify missing and unidentified persons.

      The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS

         4
         The phrase “qualifying offenses” is used here to refer to local, state, or federal
crimes that require a person to provide a DNA sample in accordance with applicable laws.
         5
         An example of a Legal Index profile is one from a person found not guilty by
reason of insanity, who is required by the relevant state law to provide a DNA sample.
         6
           An example of an Unidentified Human (Remains) Index profile from a living person
is a profile from a child or other individual, who cannot or refuses to identify themselves.

                                              4

also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

      In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. Those
persons may be identified through matches between indices in CODIS, such
as through matches between the profiles in the Missing Persons Index and
the Unidentified Human (Remains) Index. Identifications may also be
generated through matches between the Missing Persons Index and the
Relatives of Missing Persons Index. The profiles within the Missing Persons
and Unidentified Human (Remains) Indices may also be vetted against the
Forensic, Convicted Offender, Arrestee, and Legal Indices to provide
investigators with leads in solving missing and unidentified persons cases.

State and Local DNA Index System

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU,LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

      The utility of CODIS relies upon the completeness, accuracy, and
quantity of profiles that laboratories upload to the system. Incomplete
CODIS profiles are those for which the required number of core loci were not
tested, or do not contain all of the DNA information that resulted from a DNA
analysis and may not be searched at NDIS. The probability of a false match
among DNA profiles is reduced as the completeness of a profile increases.
Inaccurate profiles, which contain incorrect DNA information or an incorrect
specimen number, may generate false positive leads, false negative

                                       5

comparisons, or lead to the misidentification of a sample. CODIS becomes
more useful as the quantity of DNA profiles in the system increases because
the potential for additional leads rises. However, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS participation requirements and the profiles uploaded
to CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

      The Austin Police Department DNA Laboratory is a Local DNA Index
System laboratory. The Laboratory serves the Austin Police Department,
which covers a population of approximately 800,000. The Laboratory’s initial
access to CODIS and uploading of forensic profiles into SDIS began in
September 2004. The Laboratory received accreditation from the American
Society of Crime Laboratory Directors/Laboratory Accreditation Board
(ASCLD/LAB) in August 2005. The Laboratory completed an external audit
for their reaccreditation in April 2010.

      According to the Austin Police Department DNA Laboratory, a DNA
analyst recently made allegations of a hostile work environment, quality
assurance issues, and work performance issues. Because of the seriousness
of these complaints, the Austin Police Department Human Resource
Department reviewed the hostile work environment allegations, and the
management of the Forensic Division reviewed the allegations concerning
the quality assurance and work performance issues. The management of
the Forensic Division found that there was no basis for the quality assurance
and work performance issues. The Austin Police Department Human
Resource Department concluded that there were no policy violations.
According to the Austin Police Department DNA Laboratory officials, they
invited the Texas Department of Public Safety Investigators into the
Laboratory to investigate these accusations because of the seriousness of
the concerns. According to the Texas Department of Public Safety, the
Austin Police Department DNA Laboratory was cleared of all DNA related
allegations. The OIG is not associated with this review by the Texas
Department of Public Safety.




                                      6

              FINDINGS AND RECOMMENDATIONS

     I.	 Compliance with NDIS Participation Requirements

     The OIG examined the Austin Police Department DNA
     Laboratory’s compliance with NDIS participation requirements.
     We found that the Laboratory was in compliance with the 30-day
     timeframe for submission of the external audit to the NDIS
     Custodian, the CODIS server and terminal are properly
     safeguarded, all Laboratory personnel had completed their
     annual training, and NDIS matches were confirmed in a timely
     manner. We found that the Laboratory was in compliance with
     the NDIS participation requirements we reviewed.


      The NDIS participation requirements, which consist of the MOU and
the NDIS Procedure Manual, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
MOU describes the CODIS-related responsibilities of both the Laboratory and
the FBI. The NDIS Procedure Manual is comprised of the NDIS operational
procedures and provides detailed instructions for laboratories to follow when
performing certain procedures pertinent to NDIS. The NDIS participation
requirements we reviewed are described in more detail in Appendix II of this
report.

Results of the OIG audit

       We found that the Laboratory complied with the NDIS participation
requirements we reviewed. Specifically, we found that CODIS access is
properly safeguarded, Laboratory personnel requirements are being fulfilled,
policies and procedures related to NDIS are available and followed by
Laboratory staff, and NDIS matches are processed in a timely manner.
These results are described in more detail below.

  •	 NDIS requires that CODIS be physically and electronically safeguarded
     from unauthorized use and only accessible to limited approved
     personnel. Based on our tour of the Laboratory and discussion with
     the CODIS Administrator, we determined that the Laboratory’s one
     CODIS terminal and server are located in a separate office in the
     secured Laboratory space and only CODIS users are allowed to use
     this workstation. Additionally, the CODIS Administrator and Technical
     Leader are the only Laboratory personnel with keys to this office. All
     users have their own CODIS user account, and their screens lock after
     10 minutes of inactivity. The CODIS Administrator makes backups of

                                      7

   the CODIS server to tape three times a week, to the hard drive once a
   week, and electronically transfers backups to a secure off-site facility
   monthly.

•	 NDIS operational procedures require that CODIS users be aware of the
   NDIS procedures, know where to find them, and have access to them.
   We interviewed two of the Laboratory’s CODIS users and verified they
   knew where to find and access the hard copy procedures in the
   Laboratory and the electronic version available online.

•	 On an annual basis, CODIS users are required to successfully complete
   DNA Records Acceptance training. We verified with the FBI that all
   current CODIS users had completed the web-based training within the
   last year.

•	 The FBI requires that the Laboratory submit the appropriate
   documentation regarding CODIS users. We verified that the
   Laboratory submitted all required information for each CODIS user.

•	 NDIS requires that participating Laboratories maintain personnel files
   for CODIS users, including proficiency testing, training, and other
   reports, for 10 years. According to Laboratory officials, this analyst
   information is maintained indefinitely. This information includes
   analysts’ transcript, training, and proficiency-testing documentation.

•	 When matches are identified in the CODIS system, NDIS procedures
   describe a required match confirmation process. We judgmentally
   selected a sample of five NDIS matches and found the Laboratory to
   be timely in match confirmation requests, match confirmations,
   confirmation dispositions, and the notification of forensic matches to
   investigators.

•	 The NDIS operational procedure titled Quality Assurance Standards
   External Audit Review Procedures requires that external quality
   assurance review reports be forwarded to the NDIS custodian within
   30 days of the Laboratory’s receipt of the report. We reviewed the
   submission of the most recent external review and found that the
   report was submitted to the NDIS custodian in a timely manner.




                                   8

Conclusion

     We did not identify any deficiencies during our review of the
Laboratory’s compliance with applicable NDIS requirements. We made no
recommendations concerning our review of NDIS participation requirements.




                                    9

       II. Compliance with the Quality Assurance Standards

       We reviewed the Laboratory’s policies and procedures related to
       DNA sample security, sample processing, sample retention, and
       contamination. In addition, we examined the Laboratory’s most
       recent internal and external audits. For the items tested in our
       audit, we found the Laboratory to be in compliance with the
       QAS.

      During our audit, we considered the Forensic Quality Assurance
Standards (QAS) issued by the FBI. 7 These standards describe the quality
assurance requirements that the Laboratory must follow to ensure the
quality and integrity of the data it produces. The QAS we reviewed are
described in more detail in Appendix II.

Results of the OIG audit

      We found that the Laboratory complied with the Forensic QAS tested.
Specifically, through observation and discussion with laboratory
management, for those items tested we determined that the laboratory has
adequate building and lab security, undergoes stringent annual audits, and
has commensurable Quality Assurance Policies. These results are described
in more detail below.

   •	 The QAS requires laboratories to undergo an annual review, including
      an external review every 2 years. QAS Standard 15.1 also states that
                                       8

      the time limit between audits shall not exceed 18 months and be no
      less than 6 months. We determined that the Laboratory complied with
      this requirement by undergoing an annual audit and by alternating
      between an internal and an external audit each year.

   •	 We obtained the most recent external and internal QAS review reports
      for the Laboratory. We determined that for both reviews, the FBI
      audit document was used, all instances of noncompliance were

       7
         Forensic Quality Assurance Standards refers to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective October 1, 1998.
       8
         The QAS require that laboratories undergo annual audits. Every other year, the
  QAS requires that the audit be performed by an external agency that performs DNA
  identification analysis and is independent of the laboratory being reviewed. These audits
  are not required by the QAS to be performed in accordance with the Government Auditing
  Standards (GAS) and are not performed by the Department of Justice Office of the
  Inspector General. Therefore, we will refer to the QAS audits as reviews (either an
  internal laboratory review or an external laboratory review, as applicable) to avoid
  confusion with our audits that are conducted in accordance with GAS.

                                            10

  reported, and all auditors had completed the FBI’s reviewer training
  course. The laboratory’s last internal and external review reports, did
  not contain any findings or recommendations.

•	 To help ensure that the external auditors who performed the
   Laboratory’s most recent external review were independent when they
   performed the review, we requested and received a completed auditor
   independence statement from each auditor who participated in the
   laboratory’s last external audit. Each external auditor attested that
   they were independent at the time of the external audit.

•	 We determined that access to the laboratory is controlled and secured
   in order to prevent access by unauthorized personnel. The Laboratory
   has secure entrances that require scanned ID cards and a receptionist
   for the public entrance to prevent access by unauthorized personnel.
   Areas within the Laboratory, including elevators, are also adequately
   controlled with scan cards. Overall security at the Laboratory appears
   to be effective and in compliance with the QAS.

•	 The integrity of physical evidence and forensic samples is maintained
   by the Laboratory in accordance with the QAS. Specifically, when
   evidence first enters the building, it is given a unique indentifying
   number and entered into both the department’s evidence tracking
   system and the laboratory’s information system. The chain of custody
   for evidence is tracked in both the evidence and laboratory systems.
   Evidence and forensic samples are properly stored from the point of
   receipt through processing.

•	 To ensure the accuracy of data loaded into the database, each case
   undergoes a laboratory technical review, an administrative review, and
   a secondary screening of the DNA sample prior to uploading the
   samples to LDIS. We did not note any deficiencies with regard to
   these processes.

•	 The QAS requires laboratories to perform evidence examination, DNA
   Extraction, and PCR setup at separate times or in a separate area from
   one another unless Robotics, also known as “Expert Systems,” are
   used. If Robotics are used, QAS requires that they are internally
   validated by the laboratory prior to their use. For known and unknown
   samples, the Laboratory performs the PCR setup and amplification in
   separate rooms and times within the Laboratory. Both examination
   and extraction are done using Robotic systems, so the provision
   requiring a separate room and time is not required. We determined
   that the laboratory did internally validate its systems.

                                  11

  •	 The Laboratory retains forensic samples indefinitely and stores them in
     a secure manner. Prior to processing, the laboratory extracts the DNA
     from the evidence and sends the evidence to off-site storage. The
     DNA samples are stored in refrigerators and freezers in order to
     preserve their integrity.

  •	 We determined that the Laboratory did not contract for the analysis of
     forensic samples during our audit scope period.

  •	 In addition to the preceding steps, we also reviewed the following to
     determine if it is consistent with QAS standards: (1) the laboratory’s
     procedures concerning contamination, (2) procedures for dealing with
     multiple instances of contamination, (3) policies for proficiency tests
     and corrective action, (4) the proficiency tests of all of the laboratory’s
     analysts, (5) the documented reviews of quality assurance and
     proficiency testing programs in the laboratory, and (6) the
     amplification of negative controls. All were consistent with QAS
     standards.

Conclusion

      Based on the review of internal and external audits, as well as
Laboratory and sample security, our audit did not reveal deficiencies with
regard to the Laboratory’s compliance with the QAS we reviewed. We made
no recommendations concerning our review of the Quality Assurance
Standards.




                                      12

      III.	 Appropriateness of Forensic DNA Profiles in CODIS
            Databases

      We reviewed 100 DNA profiles in the Laboratory’s forensic
      CODIS database and determined that 97 profiles were complete,
      accurate, and allowable for inclusion in NDIS. We identified
      three forensic case samples that were not permissible for upload
      to NDIS because they were not forensic unknowns. Also, one
      additional unallowable profile, which was not part of our sample,
      was identified as a result of our review.

       We reviewed a sample of the Laboratory’s forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. 9 To test the completeness and accuracy of each profile,
we established standards that require a profile include all the loci for which
the analyst obtained results and that the values at each locus match those
identified during analysis. 10 Our standards are described in more detail in
Appendix II of this report.

       The NDIS operational procedures establish the DNA data acceptance
standards by which laboratories must abide. These procedures prohibit a
laboratory from uploading forensic profiles to NDIS that clearly match the
DNA profile of the victim or another known person, unless the known person
is a suspected perpetrator. The NDIS procedures we reviewed are described
in more detail in Appendix II of this report.

Results of the OIG Audit

      We selected a judgmental sample of 100 profiles out of the
667 forensic profiles the Laboratory had uploaded to NDIS as of July 1,
2010. We identified three case forensic profiles sampled that were not
permissible for upload to NDIS because they were not forensic unknowns.
Also, one additional unallowable profile, which was not part of our sample,
was identified as a result of our review. The remaining profiles sampled
were complete, accurate, and allowable for inclusion in NDIS. The specific
exceptions are explained in more detail below.




      9
         When a laboratory’s universe of DNA profiles in NDIS exceeds 1,500, our sample is
taken from SDIS rather than directly from NDIS. See Appendix I for further description of
the sample selection.
      10
           A “locus” is a specific location on a chromosome. The plural form of locus is loci.

                                              13

OIG Sample Number CA-11

       Sample number CA-11 was taken from a swab of blood taken from the
suspect’s hand. The evidence was taken during the investigation of a
homicide. According to the FBI’s flowchart, General Principle 8 states, “If
the suspect’s profile could reasonably have been expected to be on an item
that is at the crime scene or is part of the crime scene independent of the
crime, then it is probably not a Forensic Unknown.” Because the sample was
taken from the suspect and you would expect to find the suspect’s DNA on
his person, this sample was not a forensic unknown and, therefore, should
not have been uploaded to NDIS. The CODIS Administrator deleted this
forensic profile while she was reviewing the case files in anticipation of the
OIG CODIS audit.

OIG Sample Numbers CA-14

       Sample number CA-14 was taken from a cutting of a cigarette butt.
The evidence was from a homicide in which the crime had taken place at the
victim’s apartment building. The sample was taken from outside of the foyer
of the victim’s apartment building. There was no indication that the
evidence could be attributable to the crime scene. Additionally, another
profile that was not selected in our sample was deleted from this same case
file because it was a cutting from clothing found in the suspect’s vehicle.
This evidence was not a forensic unknown because the evidence was not
taken from the scene of the crime, and it would be reasonable for the
suspect’s DNA to be present on items within his vehicle. The CODIS
Administrator deleted these forensic profiles while she was reviewing the
case files in anticipation of the OIG CODIS audit.

OIG Sample Number CA-29

      The sample number CA-29 was taken from an aggravated robbery with
a deadly weapon. The evidence that was uploaded to NDIS was a swab
taken from a pistol handle. The pistol was located in the suspect’s vehicle
that was not located near the crime scene. The victim gave a description of
the vehicle and the suspects in the vehicle, and the police officers detained
the suspects at a different location. They removed the pistol from under the
suspect’s car seat. Because the evidence was taken from the suspect’s
possession, this is not a forensic unknown. When we brought this to the
attention of the Technical Leader, she agreed and deleted this specimen
from NDIS before we completed fieldwork.




                                     14

Conclusion

      We found four profiles that were unallowable for upload to NDIS.
However, the CODIS Administrator or Technical Leader deleted the
unallowable profiles from NDIS either before we initiated or completed our
work at the Laboratory. Therefore, we make no recommendations
concerning our review of forensic DNA profiles.




                                     15

                                                                          APPENDIX I

             OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from July 2008 through
July 2010. The objectives of the audit were to determine if the:
(1) Laboratory was in compliance with the NDIS participation requirements;
(2) Laboratory was in compliance with the Quality Assurance Standards
(QAS) issued by the FBI; and (3) Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS. To accomplish the objectives of the audit, we:

   •	 Examined internal and external Laboratory review reports and
      supporting documentation for corrective action taken, if any, to
      determine: (a) if the Laboratory complied with the QAS, (b) whether
      repeat findings were identified, and (c) whether recommendations were
      adequately resolved.11

       In accordance with the QAS, the internal and external laboratory review
       procedures are to address, at a minimum, a laboratory’s quality
       assurance program, organization and management, personnel
       qualifications, facilities, evidence control, validation of methods and
       procedures, analytical procedures, calibration and maintenance of
       instruments and equipment, proficiency testing of analysts, corrective
       action for discrepancies and errors, review of case files, reports, safety,
       and previous audits. The QAS require that internal and external reviews
       be performed by personnel who have successfully completed the FBI’s
       training course for conducting such reviews.

       11
            The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.

                                             16

        As permitted by GAS 7.42 (2007 revision), we generally relied on the
        results of the Laboratory’s external laboratory reviews to determine if
        the Laboratory complied with the QAS. 12 In order to rely on the work
        of non-auditors, GAS requires that we perform procedures to obtain
        sufficient evidence that the work can be relied upon. Therefore, we:
        (1) obtained evidence concerning the qualifications and independence
        of the individuals who conducted the review and (2) determined that
        the scope, quality, and timing of the audit work performed was
        adequate for reliance in the context of the current audit objectives by
        reviewing the evaluation procedure guide and resultant findings to
        understand the methods and significant assumptions used by the
        individuals conducting the reviews. Based on this work, we
        determined that we could rely on the results of the Laboratory’s
        external laboratory review.

    •	 Interviewed Laboratory officials to identify management controls,
       Laboratory operational policies and procedures, Laboratory certifications
       or accreditations, and analytical information related to DNA profiles.

    •	 Toured the Laboratory to observe facility security measures as well as
       the procedures and controls related to the receipt, processing, analysis,
       and storage of forensic evidence.

    •	 Reviewed the Laboratory’s written policies and procedures related to
       conducting internal reviews, resolving review findings, expunging DNA
       profiles from NDIS, and resolving matches among DNA profiles in NDIS.

    •	 Reviewed supporting documentation for 5 of 23 NDIS matches to
       determine whether they were resolved in a timely manner. The
       Laboratory provided the universe of NDIS matches as of July 6, 2010.
       The sample was judgmentally selected to include both case-to-case and
       case-to-offender matches. This non-statistical sample does not allow
       projection of the test results to all matches.

    •	 Reviewed the case files for selected forensic DNA profiles to determine if
       the profiles were developed in accordance with the Forensic QAS and
       were complete, accurate, and allowable for inclusion in NDIS.



        12	
            We also considered the results of the Laboratory’s internal laboratory review, but
could not rely on it because it was not performed by personnel independent of the
Laboratory. Further, as noted in Appendix II, we performed audit testing to verify
Laboratory compliance with specific Quality Assurance Standards that have a substantial
effect on the integrity of the DNA profiles uploaded to NDIS.

                                              17

     The NDIS Custodian, via the contractor used by the FBI to maintain
     NDIS and the CODIS software, provided a printout identifying the 667
     Short Tandem Repeat forensic profiles the Laboratory had uploaded to
     NDIS as of July 1, 2010. We limited our review to a sample of 100
     profiles. This sample size was determined judgmentally because
     preliminary audit work determined that risk was not unacceptably high.

  •	 Using the judgmentally-determined sample size, we randomly selected a
     representative sample of labels associated with specific profiles in our
     universe to reduce the effect of any patterns in the list of profiles
     provided to us. However, since the sample size was judgmentally
     determined, the results obtained from testing this limited sample of
     profiles may not be projected to the universe of profiles from which the
     sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.




                                     18

                                                             APPENDIX II

                            AUDIT CRITERIA

      In conducting our audit, we considered the NDIS participation
requirements and the Quality Assurance Standards (QAS). However, we did
not test for compliance with elements that were not applicable to the
Laboratory. In addition, we established standards to test the completeness
and accuracy of DNA profiles as well as the timely notification of DNA profile
matches to law enforcement.

NDIS Participation Requirements

       The NDIS participation requirements, which consist of the
Memorandum of Understanding (MOU) and the NDIS operational procedures,
establish the responsibilities and obligations of laboratories that participate
in NDIS. The MOU requires that NDIS participants comply with federal
legislation and the QAS, as well as NDIS-specific requirements
accompanying the MOU in the form of appendices. We focused our audit on
specific sections of the following NDIS operational procedures.

   •   DNA Data Acceptance Standards
   •   DNA Data Accepted at NDIS
   •   Quality Assurance Standards (QAS) Audits
   •   NDIS DNA Autosearches
   •   Confirm an Interstate Candidate Match
   •   General Responsibilities
   •   Initiate and Maintain a Laboratory’s Participation in NDIS
   •   Security Requirements
   •   CODIS Users
   •   CODIS Administrator Responsibilities
   •   Access to, and Disclosure of, DNA Records and Samples
   •   Upload of DNA Records
   •   Expunge a DNA Record




                                      19

Quality Assurance Standards

      The FBI issued two sets of Quality Assurance Standards (QAS): (1)
QAS for Forensic DNA Testing Laboratories, effective July 1, 2009 (Forensic
QAS) and (2) QAS for DNA Databasing Laboratories, effective July 1, 2009
(Offender QAS). The Forensic QAS and the Offender QAS describe the
quality assurance requirements that the Laboratory should follow to ensure
the quality and integrity of the data it produces.

       For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS
listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

   •	 Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
      have a facility that is designed to ensure the integrity of the analyses
      and the evidence.

   •	 Evidence Control (Forensic QAS 7.1): The laboratory shall have and
      follow a documented evidence control system to ensure the integrity of
      physical evidence. Where possible, the laboratory shall retain or return
      a portion of the evidence sample or extract.

   •	 Sample Control (Offender QAS 7.1): The laboratory shall have and
      follow a documented evidence control system to ensure the integrity of
      physical evidence.

   •	 Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
      laboratory shall monitor the analytical procedures using [appropriate]
      controls and standards.

   •	 Review (Forensic QAS 12.1): The laboratory shall conduct
      administrative and technical reviews of all case files and reports to
      ensure conclusions and supporting data are reasonable and within the
      constraints of scientific knowledge.

      (Offender QAS Standard 12.1): The laboratory shall have and follow
      written procedures for reviewing DNA records and DNA database
      information, including the resolution of database matches.

   •	 [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
      laboratory shall be audited annually in accordance with [the QAS]. The

                                      20

     annual audits shall occur every calendar year and shall be at least 6
     months and no more than 18 months apart.

     At least once every 2 years, an external audit shall be conducted by an
     audit team comprised of qualified auditors from a second agency(ies)
     and having at least one team member who is or has been previously
     qualified in the laboratory’s current DNA technologies and platform.

  •	 Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A vendor
     laboratory performing forensic and database DNA analysis shall comply
     with these Standards and the accreditation requirements of federal law.

     Forensic QAS 17.4: An NDIS participating laboratory shall have and
     follow a procedure to verify the integrity of the DNA data received
     through the performance of the technical review of DNA data from a
     vendor laboratory.

     Offender QAS Standard 17.4: An NDIS participating laboratory shall
     have, follow and document appropriate quality assurance procedures to
     verify the integrity of the data received from the vendor laboratory
     including, but not limited to, the following: (1) Random reanalysis of
     database, known or casework reference samples; (2) Inclusion of QC
     samples; (3) Performance of an on-site visit by an NDIS participating
     laboratory or multi-laboratory system outsourcing DNA sample(s) to a
     vendor laboratory or accepting ownership of DNA data from a vendor
     laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  •	 Completeness of DNA Profiles: A profile must include each value
     returned at each locus for which the analyst obtained results. Our
     rationale for this standard is that the probability of a false match
     among DNA profiles is reduced as the number of loci included in a
     profile increases. A false match would require the unnecessary use of
     laboratory resources to refute the match.


  •	 Accuracy of DNA Profiles: The values at each locus of a profile must
     match those identified during analysis. Our rationale for this standard
     is that inaccurate profiles may: (1) preclude DNA profiles from being

                                     21

  matched and, therefore, the potential to link convicted offenders to a
  crime or to link previously unrelated crimes to each other may be lost
  or (2) result in a false match that would require the unnecessary use
  of laboratory resources to refute the match.

•	 Timely Notification of Law Enforcement When DNA Profile Matches
   Occur in NDIS: Laboratories should notify law enforcement personnel
   of NDIS matches within 2 weeks of the match confirmation date,
   unless there are extenuating circumstances. Our rationale for this
   standard is that untimely notification of law enforcement personnel
   may result in the suspected perpetrator committing additional, and
   possibly more egregious, crimes if the individual is not deceased or
   already incarcerated for the commission of other crimes.




                                 22

                                                                                     APPENDIX III





                                                   F«leraf Bureau of Inveitlgation


                                                   w~.       D. C 2OS1S.oooi

                                                   November 2, 2010




Mr. David M. Sheeren
Regional Audit Man~er
Denver Regional Audit Office
Office of the Inspector General
1120 Lincoln, Suite 1500
Denver, CO 80203




Dear Mr. Sheeren:

               Your memorandum to Director Mueller forwarding the draft report of the audit
conducted at the Austin Police Department DNA Laboratory, Austin, Texas (laboratory) has been
referred \0 me for response.
               Your draft report contained no reconunendations relating to the laboratory's
compliance with the FBI's Memorandwn of Understanding and Quality Assurance Siandards for
DNA Testing Laboratories. The caDIs Unit reviewed the draft report and since il appears that the
laboratory is in compliance with NDiS participation requirements, the CaDIS Unit has no significant
comments to provide about the draft report.

               Thank you for sharing the draft audit report with us. If you have any questions, please
feel free to contacl Jennifer C. Luttman, Chief of the CaDIS Unit, at (703) 632-83 15.

                                                    Sincerely,


                                                     Ok»1<~
                                                    Alice R. Isenberg, Ph.D
                                                    Section Chief
                                                    Biometrics Analysis Section
                                                    FBI laboratory




                                               23
                                                                                       APPENDIX IV



The Austin Police Department DNA Laboratory has the following comments:

“Our audit generally covered the period from July 2008 through July 2010”. (page ii and page 1


Comment: CODIS profiles uploaded from September 2004 to July 2010 were reviewed. Guidelines for
uploadable profiles have been changed and clarified in the past several years. The 2 profiles mentioned as
being removed in preparation for the audit were uploaded prior to the issuance of the flowchart. The additional
profile that was removed that was not part of the audit sampling was also uploaded prior to the issuance of the
flowchart.

“OIG Sample Number CA-11” (page 14)

According to the FBI’s flowchart, General Principle 8 states…”

Comment: This profile was uploaded on 07/01/05 and the flowchart was not issued until 09/20/06.

“OIG Sample Number CA-14” (page 14)

Comment: The profiles mentioned were uploaded on 08/18/06. Once again this was before the flowchart issue
date with clarification of what constitutes an uploaded profile.

“OIG Sample Number CA-29” (page 14)

Comment: Although we did remove this profile from CODIS (profile was from a suspect’s car), it had been
uploaded due to facts within the case. There were multiple suspects in the car and the weapon was located
beneath the seat. The owner (one of the suspect’s) of the car denied it was his and stated he had never seen it
before.

Page 17-second bullet

Comment: We do not process any convicted offender samples in our laboratory.



Thank you,

Cassie C. Carradine, M.S.
DNA Supervisor/DNA Technical Leader
Austin Police Department DNA Laboratory




                                                        24

                                                              APPENDIX V

OFFICE OF THE INSPECTOR GENERAL COMMENTS ON THE 

AUSTIN POLICE DEPARTMENT’S RESPONSE TO THE DRAFT

                  AUDIT REPORT



      Based on the information provided by the Austin Police Department,
we made appropriate adjustments to our draft report. Additionally, we
noted that in its response to our draft report, the Austin Police Department
DNA Laboratory commented that although three unallowable profiles were
deleted, the actual flowchart cited in our report was not available at the time
the profiles were uploaded. We agree with this assessment and regard
these uploads as isolated events without need for any audit
recommendation.




                                      25

